<html>
<title> - LEGISLATIVE HEARING ON H.R. 6583, TO AUTHORIZE THE SECRETARY OF THE INTERIOR TO CONVEY CERTAIN LANDS AND FACILITIES OF THE BIG SAND WASH PROJECT, UTAH, ``BIG SAND WASH PROJECT TITLE TRANSFER ACT''; AND H.R. 6652, TO DIRECT THE SECRETARY OF THE INTERIOR TO CONVEY CERTAIN FACILITIES, EASEMENTS, AND RIGHTS-OF-WAY TO THE KENNEWICK IRRIGATION DISTRICT, AND FOR OTHER PURPOSES</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


  H.R. 6583, ``BIG SAND WASH PROJECT TITLE TRANSFER ACT''; AND H.R. 
   6652, TO DIRECT THE SECRETARY OF THE INTERIOR TO CONVEY CERTAIN 
 FACILITIES, EASEMENTS, AND RIGHTS-OF-WAY TO THE KENNEWICK IRRIGATION 
                   DISTRICT, AND FOR OTHER PURPOSES

=======================================================================

                          LEGISLATIVE HEARING

                               BEFORE THE

                SUBCOMMITTEE ON WATER, POWER AND OCEANS

                                 OF THE

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                      Wednesday, September 5, 2018

                               __________

                           Serial No. 115-52

                               __________

       Printed for the use of the Committee on Natural Resources
       
       

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


        Available via the World Wide Web: http://www.govinfo.gov
                                   or
          Committee address: http://naturalresources.house.gov
          
          
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
31-400 PDF                  WASHINGTON : 2018                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="ff988f90bf9c8a8c8b979a938fd19c9092d1">[email&#160;protected]</a>           


                     COMMITTEE ON NATURAL RESOURCES

                        ROB BISHOP, UT, Chairman
            RAUL M. GRIJALVA, AZ, Ranking Democratic Member

Don Young, AK                        Grace F. Napolitano, CA
  Chairman Emeritus                  Madeleine Z. Bordallo, GU
Louie Gohmert, TX                    Jim Costa, CA
  Vice Chairman                      Gregorio Kilili Camacho Sablan, 
Doug Lamborn, CO                         CNMI
Robert J. Wittman, VA                Niki Tsongas, MA
Tom McClintock, CA                   Jared Huffman, CA
Stevan Pearce, NM                      Vice Ranking Member
Glenn Thompson, PA                   Alan S. Lowenthal, CA
Paul A. Gosar, AZ                    Donald S. Beyer, Jr., VA
Raul R. Labrador, ID                 Ruben Gallego, AZ
Scott R. Tipton, CO                  Colleen Hanabusa, HI
Doug LaMalfa, CA                     Nanette Diaz Barragan, CA
Jeff Denham, CA                      Darren Soto, FL
Paul Cook, CA                        A. Donald McEachin, VA
Bruce Westerman, AR                  Anthony G. Brown, MD
Garret Graves, LA                    Wm. Lacy Clay, MO
Jody B. Hice, GA                     Jimmy Gomez, CA
Aumua Amata Coleman Radewagen, AS    Nydia M. Velazquez, NY
Daniel Webster, FL
Jack Bergman, MI
Liz Cheney, WY
Mike Johnson, LA
Jenniffer Gonzalez-Colon, PR
Greg Gianforte, MT
John R. Curtis, UT

                      Cody Stewart, Chief of Staff
                      Lisa Pittman, Chief Counsel
                David Watkins, Democratic Staff Director
                                 ------                                

                SUBCOMMITTEE ON WATER, POWER AND OCEANS

                       DOUG LAMBORN, CO, Chairman
              JARED HUFFMAN, CA, Ranking Democratic Member

Robert J. Wittman, VA                Grace F. Napolitano, CA
Tom McClintock, CA                   Jim Costa, CA
Paul A. Gosar, AZ                    Donald S. Beyer, Jr., VA
Doug LaMalfa, CA                     Nanette Diaz Barragan, CA
Jeff Denham, CA                      Madeleine Z. Bordallo, GU
Garret Graves, LA                    Gregorio Kilili Camacho Sablan, 
Jody B. Hice, GA                         CNMI
Daniel Webster, FL                   Jimmy Gomez, CA
  Vice Chairman                      Raul M. Grijalva, AZ, ex officio
Mike Johnson, LA
Greg Gianforte, MT
Rob Bishop, UT, ex officio

                                 ------                                
                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Wednesday, September 5, 2018.....................     1

Statement of Members:
    Huffman, Hon. Jared, a Representative in Congress from the 
      State of California........................................     3
        Prepared statement of....................................     4
    Lamborn, Hon. Doug, a Representative in Congress from the 
      State of Colorado..........................................     2
        Prepared statement of....................................     2

Statement of Witnesses:
    Ewell, Hon. Austin, Deputy Assistant Secretary for Water and 
      Science, U.S. Department of the Interior, Washington, DC...     6
        Prepared statement of....................................     8
    Freeman, Chuck, District Manager, Kennewick Irrigation 
      District, Kennewick, Washington............................    23
        Prepared statement of....................................    24
    Shawcroft, Gene, General Manager, Central Utah Water 
      Conservancy District, Orem, Utah...........................    10
        Prepared statement of....................................    12
    Winterton, Dex, General Manager, Moon Lake Water Users 
      Association, Roosevelt, Utah...............................    16
        Prepared statement of....................................    17
                                     


 
  LEGISLATIVE HEARING ON H.R. 6583, TO AUTHORIZE THE SECRETARY OF THE 
 INTERIOR TO CONVEY CERTAIN LANDS AND FACILITIES OF THE BIG SAND WASH 
 PROJECT, UTAH, ``BIG SAND WASH PROJECT TITLE TRANSFER ACT''; AND H.R. 
    6652, TO DIRECT THE SECRETARY OF THE INTERIOR TO CONVEY CERTAIN 
 FACILITIES, EASEMENTS, AND RIGHTS-OF-WAY TO THE KENNEWICK IRRIGATION 
                    DISTRICT, AND FOR OTHER PURPOSES

                              ----------                              


                      Wednesday, September 5, 2018

                     U.S. House of Representatives

                Subcommittee on Water, Power and Oceans

                     Committee on Natural Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to notice, at 2:05 p.m., in 
room 1324, Longworth House Office Building, Hon. Doug Lamborn 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Lamborn, Bishop; Huffman, and 
Barragan.

    Mr. Lamborn. The Subcommittee on Water, Power and Oceans 
will come to order. The Water, Power and Oceans Subcommittee 
meets today to hear testimony on H.R. 6583, sponsored by 
Committee Chairman Rob Bishop of Utah; and H.R. 6652, sponsored 
by Representative Newhouse of Washington.
    Under Committee Rule 4(f), any oral opening statements at 
hearings are limited to the Chairman, the Ranking Minority 
Member, and the Vice Chair. Therefore, I ask unanimous consent 
that all other Members' opening statements be made part of the 
hearing record if they are submitted to the Subcommittee Clerk 
by 5:00 p.m. today.
    Without objection, so ordered.
    The Committee will consider each bill individually, hearing 
all testimony on that bill. If a witness is addressing multiple 
bills, the complete testimony will be heard at one time. After 
all the testimony is heard on the first bill, Members will have 
5 minutes to ask questions on that bill only. We will then hear 
from our witnesses on the next bill, and repeat the process.
    We will begin with opening statements, starting with myself 
for 5 minutes.

    STATEMENT OF THE HON. DOUG LAMBORN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF COLORADO

    Mr. Lamborn. The Subcommittee meets today to consider two 
Bureau of Reclamation title transfer bills that give local 
control of critical water facilities and infrastructure to the 
local entities that already operate and maintain those 
facilities.
    Title transfers are often a win-win for the taxpayer and 
the local communities that are served by these facilities. 
Transferring simple projects, or parts of them, allows water 
districts and other local beneficiaries to leverage non-Federal 
financing through ownership equity, while simultaneously 
decreasing Federal liability.
    Facilitating these types of title transfers remains a 
priority for this Subcommittee. As some of you are aware, I 
have authored a bill, H.R. 3281, which establishes a 
streamlined process for administratively conducting title 
transfers for uncomplicated, single-purpose water facilities. 
The Administration has also transmitted a similar proposal 
which aims to do the same.
    Both bills we are considering here today, one sponsored by 
Chairman Bishop and one by Congressman Newhouse, transfer 
facilities to the respective local water managers. In both 
cases, as is a general requirement for title transfers, the 
recipients are fully willing to repay the balance of the 
Federal repayment obligation to receive title to these 
facilities. Additionally, both transfers will ultimately 
include agreements to ensure that current water deliveries are 
held constant throughout and after the transfer.
    The Federal Government provided the initial capital 
contribution to build the vast majority of early Reclamation 
projects. However, the water and power customers who benefited 
from the facilities entered into long-term contracts with the 
Federal Government to repay their part of the initial taxpayer 
investment.
    Under the Reclamation law, Reclamation may transfer day-to-
day operational and maintenance responsibilities to project 
beneficiaries. However, the title or ownership of any facility 
must remain in Federal ownership until Congress enacts 
legislation specifically authorizing such a transfer. And that 
is why we are here today.
    The two bills in front of us support local infrastructure 
and give local communities the ability to seek private 
financing through equity to improve vital water infrastructure. 
Additionally, these transfers can reduce paperwork and staff 
time at both the Federal and local levels, and reduce the 
Federal backlog of repairs to these facilities, which can 
improve the environment and public safety.
    I want to thank the witnesses for their willingness to be 
here with us today, and I look forward to hearing from our 
witnesses today on the local benefits of these title transfers.

    [The prepared statement of Mr. Lamborn follows:]
Prepared Statement of the Hon. Doug Lamborn, Chairman, Subcommittee on 
                        Water, Power and Oceans
    The Subcommittee meets today to consider two Bureau of Reclamation 
title transfer bills that give local control of critical water 
facilities and infrastructure to the local entities that already 
operate and maintain those facilities.
    Title transfers are often a win-win for the taxpayer and the local 
communities that are served by these facilities. Transferring simple 
projects--or parts of them--allows water districts and other local 
beneficiaries to leverage non-Federal financing through ownership 
equity while simultaneously decreasing Federal liability. Facilitating 
these types of title transfers remains a priority for this 
Subcommittee. As some of you are aware, I have authored a bill, H.R. 
3281, which establishes a streamlined process for administratively 
conducting title transfers for uncomplicated, single-purpose water 
facilities. The Administration has also transmitted a similar proposal 
which aims to do the same.
    Both bills we are considering here today, one sponsored by Chairman 
Bishop and one by Congressman Newhouse, transfer facilities to the 
respective local water managers. In both cases, as is a general 
requirement for title transfers, the recipients are fully willing to 
repay the balance of the Federal repayment obligation to receive title 
to these facilities. Additionally, both transfers will ultimately 
include agreements to ensure that current water deliveries are held 
constant throughout and after the transfer.
    The Federal Government provided the initial capital contribution to 
build the vast majority of early Reclamation projects, however, the 
water and power customers who benefited from the facilities entered 
into long-term contracts with the Federal Government to repay their 
part of the initial taxpayer investment.
    Under the Reclamation law, Reclamation may transfer day-to-day 
operational and maintenance responsibilities to project beneficiaries, 
however, the title or ownership of any facility must remain in Federal 
ownership until Congress enacts legislation specifically authorizing 
such a transfer. That is why we are here today.
    The two bills in front of us today support local infrastructure and 
give local communities the ability to seek private financing, through 
equity, to improve vital water infrastructure. Additionally, these 
transfers can reduce paperwork and staff time at both the Federal and 
local levels and reduce the Federal backlog of repairs to these 
facilities, which can improve both the environment and public safety.
    I want to thank the witnesses for their willingness to be here with 
us today and look forward to hearing from our witnesses today on the 
local benefits of these title transfers.

                                 ______
                                 

    Mr. Lamborn. I now recognize the Ranking Member, Mr. 
Huffman of California, for 5 minutes for his statement.

   STATEMENT OF THE HON. JARED HUFFMAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Huffman. Thank you, Mr. Chairman. Welcome to our 
witnesses. I am glad to be here, examining these two title 
transfer bills. These bills before us would authorize the 
Federal Government to relinquish ownership of certain Federal 
water facilities to local water districts in Utah and 
Washington State.
    The first bill, H.R. 6583, involving the Uintah--if I am 
pronouncing that right--Basin Replacement Project is one that 
supplies water for irrigation and municipal and industrial 
purposes around Duchesne County, Utah. I look forward to 
learning more about this bill, and am grateful that we have 
witnesses from the Central Utah Water Conservancy District and 
Moon Lake Water Users with us here today.
    Next is H.R. 6652, authorizing the transfer of certain 
canals and laterals associated with the Kennewick Irrigation 
District in Benton County, Washington. Glad that we are hearing 
from that irrigation district. I should note also that the 
Yakima Nation has been an interested stakeholder. They've been 
in contact with my office, and I'm pleased to learn, 
apparently, that they have also been in contact with the 
irrigation district and some of their concerns have been 
incorporated in proposed amendments. So, I want to commend 
folks for continuing to work with critical stakeholders. I look 
forward to hearing more about that legislation, as well.
    Speaking of working collaboratively on title transfers, I 
have to note that we have a little unfinished business before 
this Subcommittee. The Chairman and I agree on the concept of 
title transfers in many cases, and yet we have been dealing 
with this issue on a project-by-project, piecemeal basis, 
rather than looking at a broader policy framework. And I am 
hoping we can maybe follow the lead that the Senate has started 
to demonstrate, by trying to establish some broad policy 
factors that can guide these decisions, going forward.
    The Chairman knows that I have long supported the idea of 
making it easier to carry out title transfers, as long as these 
transfers preserve environmental protections, abide by our 
tribal trust obligations, and ensure fair taxpayer 
compensation. In some cases, it is very important to recognize 
taxpayers have invested tens of millions of dollars in the 
construction of water infrastructure, and it is only fair that 
they, the taxpayers, be properly compensated for their 
investment before Federal assets are relinquished.
    Also critical, I believe that title transfers should do no 
harm to tribes, to our Nation's environment, or to other water 
users. The Bureau of Reclamation projects and the decisions 
about how to operate them can have an enormous impact on the 
health of our Nation's native fish and wildlife, including 
tribal fisheries. So, those are factors that need to be part of 
a, hopefully, bipartisan framework on this issue, going 
forward.
    And the operation of these projects can determine how river 
flows are regulated, whether migrating fish can move 
downstream, whether rivers stay at temperatures sufficient to 
sustain native fish and wildlife. The projects have to be 
operated in a balanced manner that protects the environment, no 
matter who owns them, going forward.
    As we consider potential reforms, I think we can certainly 
make it easier to carry out the non-controversial transfers 
that only serve a narrow set of stakeholders, but I do not 
support transfers that allow one stakeholder to take sole 
ownership of large, multipurpose water projects that are vital 
to many stakeholders. Those are just inherently more 
complicated, in my view.
    I look forward to seeing if we can't find some more common 
ground on this issue.
    I welcome the witnesses, and with that I yield back, Mr. 
Chairman.

    [The prepared statement of Mr. Huffman follows:]
     Prepared Statement of the Hon. Jared Huffman, Ranking Member, 
                Subcommittee on Water, Power and Oceans
    Thank you, Mr. Chairman.

    I'm glad to be here today to examine two title transfer bills. The 
bills before us would authorize the Federal Government to relinquish 
ownership of certain Federal water facilities to local water districts 
in Utah and Washington State.
    First on the agenda we have H.R. 6583, which would authorize the 
transfer of certain features and lands associated with the Uinta Basin 
Replacement Project, which supplies water for irrigation and municipal 
and industrial purposes around Duchesne County, Utah. I look forward to 
hearing more about this bill and I want to thank our witnesses from the 
Central Utah Water Conservancy District and Moon Lake Water Users 
Association for joining us today.
    Next on the agenda we have H.R. 6652, which would authorize the 
transfer of certain canals and laterals serving the Kennewick 
Irrigation District, located in Benton County, Washington. While I'm 
glad we'll be hearing from the Kennewick Irrigation District today, I 
should note that the Yakama Nation also has an interest in this 
legislation and has been in contact with my office.
    I understand that the Yakama Nation's proposed a series of 
amendments to H.R. 6652 that aim to preserve tribal rights and 
interests. I also understand that the Kennewick Irrigation District's 
rightfully agreed to the proposed amendments. I'm glad to hear that 
Kennewick has checked in with other stakeholders and is working in a 
collaborative manner on this bill. I look forward to hearing more about 
this legislation as well.
    Speaking of working collaboratively on title transfers, I must note 
that an area of unfinished business for us, Mr. Chairman, is finding 
agreement on the broader title transfer issue. Republicans and 
Democrats in the Senate have come together and reached a compromise on 
broad title transfer legislation. I hope we can make the same progress 
in this chamber.
    As you know, Mr. Chairman, I've long supported the idea of making 
it easier to carry out title transfers, so long as those transfers 
preserve environmental protections, abide by our tribal trust 
obligations, and ensure fair taxpayer compensation.
    Taxpayers have invested tens of billions in the construction of our 
Nation's water projects. It's only fair that taxpayers be properly 
compensation for their investment before Federal assets are 
relinquished.
    It's also critical that title transfers do no harm to tribes or our 
Nation's environment. The Bureau of Reclamation's water projects and 
the decisions made about how to operate them have an enormous impact on 
the health of our Nation's native fish and wildlife, including tribal 
fisheries.
    The operation of many water projects determine how river flows are 
regulated, whether migrating fish can move downstream, and whether 
rivers stay at temperatures sufficient to support the existence of fish 
and wildlife. These kinds of water projects must be operated in a 
balanced manner that protects the environment.
    As we consider potential reforms, I think we can certainly make it 
easier to carry out non-controversial transfers that only serve a 
narrow set of stakeholders. That being said, I do not support title 
transfers that allow one stakeholder to take sole ownership of large, 
multipurpose water projects that serve numerous stakeholders.
    Large multipurpose water projects, of which there are many across 
the West, often need to be operated in a manner that balances sometimes 
conflicting stakeholder interests. Transferring ownership to just one 
stakeholder would likely result in significant harm to many other 
interests impacted by the operation of water projects, including 
tribes, fishing groups, power users, and environmental and recreational 
interests, to name a few.
    I also believe that title transfers must not undermine bedrock 
environmental laws like ESA or NEPA. I'm glad to see that both of 
today's bills require compliance with ESA and NEPA. That being said, 
both bills also approve a title transfer before the NEPA process is 
actually carried out.
    As we consider both bills, I do want to give some thought to 
whether NEPA should be carried out before a final decision is made 
about a title transfer. NEPA, after all, is intended to inform decision 
making. Given that fact, we may want to leave some limited discretion 
with the Interior Department to allow a final decision to be made, 
within certain parameters, after the NEPA process is complete.
    Nevertheless, I remain open to working across the aisle in a 
collaborative manner. I think we can carry out many title transfers 
while protecting environmental, tribal, and taxpayer interests. I hope 
we can keep working together on this issue, Mr. Chairman. There's 
certainly room to improve the existing title transfer process while 
keeping important protections in place, and I hope you'll join me in 
that effort.

    Thank you, I yield back.

                                 ______
                                 

    Mr. Lamborn. All right. I will now introduce our panel of 
witnesses.
    Our first witness is Mr. Austin Ewell, Deputy Assistant 
Secretary for Water and Science for the Department of the 
Interior, from Washington, DC; our second witness is Mr. Gene 
Shawcroft, General Manager of the Central Utah Water 
Conservancy District, from Orem, Utah; our third witness is Mr. 
Dex Winterton, General Manager of the Moon Lake Water Users 
Association, from Roosevelt, Utah; and our final witness is Mr. 
Chuck Freeman, District Manager for the Kennewick Irrigation 
District, from Kennewick, Washington.
    Thank you all for taking the time to be here. Each witness' 
written testimony will appear in full in the hearing record, so 
I ask that you keep your oral statements to 5 minutes, as 
outlined in our invitation letter to you, and also under 
Committee Rule 4(a).
    I also want to explain how our timing lights work. When you 
are recognized, press the talk button to activate your 
microphone. Once you begin your testimony the Clerk will start 
the timer and a green light will appear. After 4 minutes, a 
yellow light will appear, and at that time you should begin to 
conclude your statement. At 5 minutes, the red light will come 
on. You may complete your sentence, but I ask that you stop at 
that point.
    We will now hear testimony on H.R. 6583, starting with the 
bill's sponsor and Committee Chairman, Mr. Rob Bishop of Utah.
    The Chairman. I'll wait.
    Mr. Lamborn. OK. We will now hear from our panel of 
witnesses. And, again, if your testimony is broader than just 
the first bill, we will still hear your entire statement, but 
we would ask that you remain for questions on the other 
measures later in the hearing. And those who have testified 
only on the first bill will be able to leave after we take up 
consideration on the second bill.
    Mr. Ewell, you are now recognized for 5 minutes.

STATEMENT OF THE HON. AUSTIN EWELL, DEPUTY ASSISTANT SECRETARY 
    FOR WATER AND SCIENCE, U.S. DEPARTMENT OF THE INTERIOR, 
                         WASHINGTON, DC

    Mr. Ewell. Thank you very much. Good afternoon. And also, 
thank you to staff for your efforts on this.
    Chairman Lamborn, Ranking Member Huffman, and members of 
the Subcommittee, I am Austin Ewell, Deputy Assistant Secretary 
for Water and Science at the Department of the Interior. Thank 
you for the opportunity to provide the Department's views on 
two title transfer bills.
    The Department has an active title transfer program, and 
supports transferring certain reclamation project facilities to 
non-Federal entities, particularly in cases where transfers 
could create opportunities, not just for those who receive 
title, but for other stakeholders and the public, as well.
    A streamlined title transfer process for uncomplicated 
transfers would create incentives for non-Federal entities to 
closely engage with the Bureau of Reclamation to complete the 
application process and allow for appropriate transfers to take 
place without legislation. This approach is reflected in the 
Administration's title transfer legislation proposal 
transmitted to Congress this past February.
    Let me turn my attention to the two bills before the 
Subcommittee.
    H.R. 6652, the Kennewick Irrigation District Transfer Act 
directs the Department to offer to transfer and convey to the 
Kennewick Irrigation District all right, title, and interest of 
the United States in and to the Kennewick Irrigation District 
Canal within 2 years of enactment of this Act.
    The canal includes the entirety of the canal unit of the 
Yakima project, including canals, lateral appurtenant works, 
and lands which begin at the District's head gate, and extends 
approximately 40 miles east of the Columbia River.
    The facilities under consideration to be transferred are 
currently owned by Reclamation, but responsibility for their 
operations and maintenance has been transferred to the 
District.
    The Department recognizes that the District is a long-time 
Yakima project contractor, and that, regardless of canal 
ownership, the District would continue to pay their share of 
the Yakima project operations and maintenance through their 
water service contract.
    Reclamation has been working closely with the District on 
this title transfer, and we look forward to continuing that 
progress.
    H.R. 6583, the Big Sand Wash Project Title Transfer Act, 
would transfer title to the Big Sand Wash Reservoir and the 
other features of the Uintah Basin Replacement Project from the 
United States to the Central Utah Water Conservancy District. 
The project was authorized in Section 203 of the Central Utah 
Project Completion Act to implement specific projects in the 
Uintah Basin of Eastern Utah.
    The project provides 2,500 acre-feet of irrigation water, 
and 3,000 acre-feet of municipal and industrial water, reduces 
wilderness impacts, increases instream flows, and improves 
recreational opportunities. The project was implemented under a 
partnership agreement, whereby the Department provided $64 
million of upfrontFederal funding; Central Utah provided $27 
million of local funding; and the Utah Reclamation Mitigation 
and Conservation Commission also provided additional Federal 
funding for environmental mitigation.
    Under the project agreements, Moon Lake Water Users 
Association agreed to allow its existing private facilities to 
be used for the project, but provided no funding. Central Utah 
constructed the project features and is responsible for 
repayment of the Federal investment, and for operation, 
maintenance, and replacement of the project.
    The key feature of the project is the Big Sand Wash Dam. 
The original dam was owned by Moon Lake, who agreed to the 
reconstruction of the dam as part of the project. Under the 
project, Central Utah removed and replaced most of the existing 
dam. The new Big Sand Wash Dam creates an enlarged reservoir 
with twice the original capacity that is shared between Moon 
Lake and the project. In order to enlarge the reservoir, the 
additional land that would be newly inundated was acquired by 
Central Utah, acting as a purchasing entity for the Federal 
Government as part of its construction obligation.
    I am pleased to say that, over the past several years, the 
Department's representatives, along with Central Utah and Moon 
Lake, have met with Chairman Bishop's office, working 
constructively to resolve these issues. This bill would provide 
the means to resolve the outstanding dispute by transferring 
title to project facilities, but maintaining project deliveries 
under contract. We look forward to continuing our work with the 
Committee and local stakeholders to meet the goals of this 
legislation.
    My written testimony provides the recommended modifications 
to both of these transfer bills. We believe that, if structured 
properly, transferring title of each of these facilities will 
resolve outstanding issues and create opportunities by allowing 
the projects to be fully operated by those who best understand 
the needs of their communities.
    With the modifications in my testimony, the Department 
would be pleased to support both bills.
    I would be happy to respond to any questions.
    Thank you.

    [The prepared statement of Mr. Ewell follows:]
  Prepared Statement of Austin Ewell, Deputy Assistant Secretary for 
  Water and Science, U.S. Department of the Interior on H.R. 6652 and 
                               H.R. 6583
    Chairman Lamborn, Ranking Member Huffman, and members of the 
Subcommittee, I am Austin Ewell, Deputy Assistant Secretary for Water 
and Science at the Department of the Interior (Department). Thank you 
for the opportunity to provide the views of the Department on two title 
transfer bills, H.R. 6652 and H.R. 6583.
    As this Subcommittee knows, the Department has an active title 
transfer program and supports transferring certain Reclamation project 
facilities to non-Federal entities, particularly in cases where 
transfers could create opportunities, not just for those who receive a 
title, but for other stakeholders and the public as well. Specifically, 
a streamlined title transfer process for uncomplicated transfers 
creates incentives for non-Federal entities to closely engage with the 
Bureau of Reclamation (Reclamation) to complete the process and allow 
for appropriate transfers to take place without legislation. This 
approach is reflected in the Administration's Title Transfer 
legislative proposal, transmitted to Congress in February of this year.

    Let me turn my attention to the two bills before the Subcommittee 
today.
       h.r. 6652, the kennewick irrigation district transfer act
    H.R. 6652 directs the Department to offer to transfer and convey to 
the Kennewick Irrigation District (District) all right, title, and 
interest of the United States in and to the Kennewick Irrigation 
District Canal (Canal) within 2 years of enactment of this Act. The 
Canal includes the entirety of the Canal Unit of the Yakima Project, 
including canals, lateral appurtenant works, and lands which begin at 
the District's head-gate and extends approximately 40 miles east to the 
Columbia River. The facilities under consideration to be transferred 
are currently owned by Reclamation, but responsibility for their 
operations and maintenance has been transferred to the District.
    We believe that if structured properly, the transfer of these 
facilities will improve the efficiency and effectiveness of the Canal's 
operations by getting control of the lands and facilities into the 
hands of those who best understand the needs of the community. We 
believe that the District has effectively managed these facilities for 
many years and would be a good and responsible candidate to take title 
pursuant to a title transfer agreement that protects the interests of 
the District, the local community, the Department, U.S. taxpayers and 
other stakeholders.
    The Department recognizes that the District is a longtime Yakima 
Project contractor and that regardless of Canal ownership, the District 
would continue to pay their share of Yakima Project operations and 
maintenance through their water service contract.
    Mr. Chairman, it is important to note that in most cases, 
Reclamation and the entity interested in taking title completes all of 
the necessary steps in the title transfer process, including the 
development of the terms and conditions of the transfer that protect 
the interests of the District, Reclamation and other stakeholders, 
before pursuing legislation. Earlier this year, Reclamation and the 
District entered into a Memorandum of Agreement which spells out all of 
the steps for both analyzing the transfer proposal and then developing 
the terms and conditions of the title transfer agreement. We believe 
that we are making good progress in that process and are committed to 
continuing to do so. However, as currently drafted, this legislation 
would authorize the transfer before those steps are completed.
    Instead, we recommend that the conveyance be completed pursuant to 
a title transfer agreement developed between the Department and the 
District. This will enable Reclamation and the District to concurrently 
work through the upfront activities, such as holding public meetings to 
ensure that the community that could potentially be impacted is aware 
of the proposal and has the opportunity to raise questions and have 
potential concerns addressed before we get to the legislative process. 
We have had situations in previous transfers where stakeholder concerns 
were not addressed until after the legislation was enacted which 
required that additional legislation be introduced and considered 
because the terms and conditions were delineated exclusively in the 
legislation, and there was no flexibility to address unanticipated 
problems after the fact. So instead of expediting the transfer's 
completion, actual facility conveyance was significantly delayed due to 
the need for additional legislation. It is our goal in this case to 
avoid that.
    Further, it is important that the legislation protects the 
financial interests of taxpayers. While the District has not completed 
its repayment obligation for its share of construction costs of the 
Canal, the District is capable and willing to complete the repayment 
obligation early to finalize the completion of the title transfer. We 
need to accurately account for revenues from other contracts, leases, 
and agreements that currently come to the United States but would 
transfer to the District under this Act. As yet, that process has not 
yet been completed. We recommend that the legislation acknowledge this 
requirement. In addition, we recommend that Section 6 of the bill be 
revised to authorize, rather than require, Reclamation to provide up to 
50 percent of certain costs.
    We would be pleased to work with the Committee, the sponsors and 
the District on legislative language to reflect these necessary 
modifications. In the meantime, we recommend that Reclamation and the 
District complete a valuation analysis to ensure that the financial 
interests of the United States are protected and that the results be 
reflected in the title transfer agreement that is referenced in the 
legislation.
    Mr. Chairman, Reclamation has been working closely and 
collaboratively with the District on this title transfer and we look 
forward to continuing that progress.

    With these modifications, the Department would be pleased to 
support H.R. 6652.
        h.r. 6583, the big sand wash project title transfer act
    H.R. 6583 would transfer title to the Big Sand Wash Reservoir and 
the other features of the Uintah Basin Replacement Project (Project) 
from the United States to the Central Utah Water Conservancy District 
(Central Utah). The Project was authorized in Section 203 of the 
Central Utah Project Completion Act to implement specific projects in 
the Uintah Basin of Eastern Utah.
    The project provides 2,500 acre-feet of irrigation water and 3,000 
acre-feet of municipal and industrial water; reduces wilderness 
impacts; increases instream flows; and improves recreation 
opportunities. The Project was implemented under a partnership 
arrangement whereby the Department provided $64 million of up-front 
Federal funding, Central Utah provided $27 million of local funding, 
and the Utah Reclamation Mitigation and Conservation Commission also 
provided additional Federal funding for environmental mitigation. Under 
the project agreements, Moon Lake Water Users Association (Moon Lake) 
agreed to allow its existing private facilities to be used for the 
project but provided no funding. Central Utah constructed the Project 
features and is responsible for repayment of the Federal investment and 
for operation, maintenance, and replacement of the Project.
    The key feature of the Project is the Big Sand Wash Dam. The 
original dam was owned by Moon Lake who agreed to the reconstruction of 
the dam as part of the Project. Under the Project, Central Utah removed 
and replaced most of the existing dam. The New Big Sand Wash Dam 
creates an enlarged reservoir with twice the original capacity that is 
shared between Moon Lake and the Project. In order to enlarge the 
reservoir, the additional land that would be newly inundated was 
acquired by Central Utah, acting as a purchasing entity for the Federal 
Government as part of its construction obligation, at a cost of $5.4 
million, of which $4.7 million were Federal funds.
    Before construction of the Project began, a Warranty Deed of 
Easement on appurtenant associated lands was recorded November 15, 
2001, under which Moon Lake gave permanent and temporary construction 
and inundation easements to the United States for construction of the 
Big Sand Wash Dam, dikes, and appurtenant structures. This Deed 
included the following language: ``In the event of termination of the 
Operating Agreement, all easements granted herein shall automatically 
terminate.'' Although this provision of the Warranty Deed was approved 
at that time by the Department, our current position is that this 
language is not allowed by law for an additional easement to be 
acquired for the reservoir lands because the easement would be 
defeasible; that is, the easement would no longer exist or at best 
become uncertain and subject to challenge should the Operating 
Agreement be terminated.
    In addition to the Warranty Deed, other agreements, including the 
Operating Agreement, were also executed on November 15, 2001, for the 
implementation of the Project and the Big Sand Wash enlargement. The 
understanding in these agreements is that the land purchased by Central 
Utah for inundation would be transferred to Moon Lake subject to a 
permanent easement in the name of the United States. Moon Lake has 
advocated strongly that the exact language from the Warranty Deed, be 
included in land transfer documents.
    From the Department's perspective, this presents potential legal 
complications because 40 U.S.C. Sec. 3111 requires that any land or 
interest acquired by the United States must be sufficient for the 
purpose for which the property is being acquired. The purpose of this 
acquisition is to have a permanent easement within the expanded 
reservoir to store Project water. There is no other option for storage 
of that water. Consequently, a defeasible interest is not sufficient 
for the purpose of the acquisition. The language Moon Lake has 
advocated for could leave the United States without the ability to 
store Federal water after a substantial investment of $64 million to 
develop the Project. In short, a defeasible easement interest makes the 
Federal water supply from the Project uncertain and potentially subject 
to re-allocation by a future Moon Lake action or leadership. The 
communities and farms served by the Project cannot grow and develop if 
they are required to rely upon an uncertain Project water supply.
    In addition, as noted above, Central Utah used Federal funds to 
acquire certain lands in its name for the purpose of water storage and 
conveyance in the enlarged Big Sand Wash facility. These lands are 
referred to as ``Acquired Lands'' in the proposed legislation. While 
Central Utah may not have had the authority to use Federal funds to 
acquire those lands in its name, the legislation also resolves this 
issue.
    This bill would provide the means to resolve the outstanding 
dispute by transferring title to Project facilities but maintaining 
Project deliveries under contract.
    However, it is important to note that in most cases, the Department 
and the entity interested in taking title must complete environmental 
compliance activities and negotiate the terms and conditions of the 
transfer before pursuing legislation. The Department has been working 
with Central Utah closely on this effort and will continue to do so. 
Although this proposed legislation, as currently drafted, would 
authorize title transfer before those steps are completed, it requires 
that all agreements needed to complete those steps be executed prior to 
title transfer.
    Thus, we recommend that the title transfer be completed pursuant to 
the agreements procedure described in the Administration's Title 
Transfer legislative proposal. This will enable the Department, Central 
Utah, and the other stakeholders to successfully complete all of the 
activities and agreements that are necessary as a prerequisite to title 
transfer. We have had situations in previous title transfers where 
additional legislation was required because the terms and conditions of 
transfer were prescribed exclusively in the legislation leaving little 
to no flexibility to address unanticipated problems or issues in those 
matters.
    We would be pleased to work with the Committee, Central Utah, and 
the other stakeholders on legislative language to reflect these 
necessary modifications.
    Mr. Chairman, the Department has been working closely with Central 
Utah on this issue and we look forward to continuing that progress. We 
believe that if structured properly, title transfer of these facilities 
will resolve the outstanding issues and create opportunities by 
allowing the project to be fully operated by those who best understand 
the needs of the community.

    With these modifications, the Department would be pleased to 
support H.R. 6583.

    This completes my written statement.

                                 ______
                                 

    Mr. Lamborn. Thank you.
    Mr. Shawcroft, you are now recognized for 5 minutes.

  STATEMENT OF GENE SHAWCROFT, GENERAL MANAGER, CENTRAL UTAH 
             WATER CONSERVANCY DISTRICT, OREM, UTAH

    Mr. Shawcroft. Thank you. Good afternoon. Chairman Lamborn, 
Ranking Member Huffman, and members of the Subcommittee, I 
serve as the General Manager for the Central Utah Water 
Conservancy District, which is the state agency responsible for 
the construction, repayment and maintenance of the Central Utah 
Project.
    I wish to express gratitude to Chairman Bishop for his 
leadership on this legislation.
    I am pleased to support H.R. 6583 which transfers title to 
the Big Sand Wash Reservoir and related features of the Uintah 
Basin Replacement Project to the District and, ultimately, the 
local water users. With funding support from the Department of 
the Interior, we built the replacement project to provide 
additional water for agriculture and M&I use in Duchesne 
County, Utah. The project helped to solve problems of access 
and needed repair of small, high-mountain lakes located on High 
Uintas Wilderness Areas upon which the farmers rely.
    The features of the replacement project were constructed by 
the District to enlarge Big Sand Wash Reservoir, which is owned 
by the Moon Lake Water Users Association, so we could move 
their water rights out of the wilderness area and provide a 
firmer supplemental supply of water in the county.
    The enlarged reservoir also provides new municipal water to 
Roosevelt City and other entities through the Duchesne County 
Water Conservancy District. The total cost of the project was 
$90 million, which funding was provided through a 65 percent 
Federal/35 percent District cost-share arrangement.
    The replacement project includes the enlarged Big Sand Wash 
Dam and Reservoir, which provides an additional 2,500 acre-feet 
of irrigation and 3,000 acre-feet of M&I water, Federal water, 
that is delivered to the Duchesne County Water Conservancy 
District for use by its M&I and agricultural customers.
    The enlargement-inundated lands were acquired by the 
District at a cost of $5.4 million with both Federal and local 
funds. The land acquisition process was very lengthy, and 
although construction of the project was completed in 2007, the 
final arrangements for the land transfer were not in place 
until 2016.
    The solution of a title transfer of the Big Sand Wash is to 
resolve a dispute over language contained in a warranty deed of 
easement on appurtenant lands that was given to the United 
States by the Moon Lake Water Users Association. This deed 
included the following language: ``In the event of termination 
of the operating agreement, all easements granted herein shall 
automatically terminate.'' Although the warranty deed with its 
original sentence was approved by the Solicitor's Office, the 
Department of the Interior's current position is that this 
language is illegal and unenforceable, and can no longer be 
honored.
    The District initially suggested a solution to resolve the 
issue, and that was to transfer the land that was purchased by 
the District with Federal funding to the Association with a 
permanent easement in the name of the United States. The 
District prepared the transfer documents, however, the 
Association insisted that the easement provided violated the 
original agreement.
    The Department of the Interior's Solicitor's Office insists 
that the original language in the deed would result in a 
defeasible interest in land of the United States, which is 
illegal and unenforceable, and could leave the United States 
without the ability to store supplemental Federal water after a 
$90 million investment.
    Over the past 3 years, under the direction of Chairman 
Bishop, all of the parties, including the Utah office of the 
Bureau of Reclamation and the Central Utah Project Completion 
Act officials, have been working on a legislative solution. The 
bill, as drafted today, is the result of these negotiations. 
The District joined the Association and Duchesne County Water 
Conservancy District and signed a Memorandum of Agreement, 
which is part of the record, which is reflective of the text 
associated with H.R. 6583.
    This bill is very straightforward. It authorizes the 
District to prepay all of the Federal partners' investment, and 
that will enable the District to obtain title to these lands 
for the purpose of transferring the properties at Big Sand Wash 
Reservoir to Moon Lake Water Users Association.
    Other features of the project include delivery pipelines to 
Duchesne County municipal and industrial customers, and all of 
these are specified in agreements that will be necessary in the 
bill.
    We appreciate your support, and are very supportive of H.R. 
6583. Thank you.

    [The prepared statement of Mr. Shawcroft follows:]
  Prepared Statement of Gene Shawcroft, General Manager, Central Utah 
           Water Conservancy District in support of H.R. 6583
    Chairman Lamborn, Ranking Member Huffman, and members of the 
Subcommittee, I serve as General Manager of the Central Utah Water 
Conservancy District (District), which is the state agency responsible 
for the construction, repayment and maintenance of the Central Utah 
Project. I wish to express my gratitude to Chairman Rob Bishop for his 
leadership on this legislation. I am pleased to support H.R. 6583 which 
transfers title to the Big Sand Wash Reservoir and related features of 
the Uintah Basin Replacement Project (UBRP) to the District and 
ultimately the local water users. With funding support from the 
Interior Department, we built UBRP to provide additional water for 
agriculture and M&I use in Duchesne County, Utah. The project helped to 
solve problems of access and needed repair of small, high mountain 
lakes located in the High Uintas Wilderness Area upon which the farmers 
rely.
    The features of UBRP were constructed by the District to enlarge 
Big Sand Wash Reservoir, which is owned by the Moon Lake Water Users 
Association, so we could move their water rights out of the wilderness 
area and provide a firmer supplemental supply of water in the County. 
The enlarged reservoir also provides new municipal water to Roosevelt 
City and other entities through the Duchesne County Water Conservancy 
District. The total cost of the project was $90 million, with funding 
provided through a 65 percent Federal/35 percent District cost-share 
arrangement.
    UBRP includes the enlargement of the Big Sand Wash Dam and 
Reservoir, which provides an additional 2,500 acre-feet for irrigation 
and 3,000 acre-feet for M&I of Federal water that is delivered to the 
Duchesne County Water Conservancy District for use by its M&I and 
agricultural customers. The enlargement-inundated lands were acquired 
by the District at a cost of $5.4 million with both Federal and local 
funds. The land acquisition process was very lengthy, and although 
construction of the project was completed in 2007, the final 
arrangements for land transfer were not in place until 2016.
    The solution of a title transfer of the Big Sand Wash Dam is to 
resolve a dispute over language contained in a warranty deed of 
easement on appurtenant lands that was given to the United States by 
the Moon Lake Water Users Association. This deed included the following 
language: ``In the event of termination of the Operating Agreement, all 
easements granted herein shall automatically terminate.'' This created 
an expectation by Moon Lake Water Users Association that at some point 
the dam would once again become their property. Although the warranty 
deed with this original sentence was approved by the Solicitor's 
Office, the Department of the Interior's current position is that this 
language is illegal and unenforceable and can no longer be honored.
    The District initially suggested one solution to resolve the issue 
and that was to transfer the land that was purchased by the District 
with Federal funding to Moon Lake Water Users Association with a 
permanent easement in the name of the United States. The District even 
prepared the transfer documents; however, Moon Lake Water Users 
Association insisted that the easement provision violated the original 
agreement. The Department of the Interior's Solicitors Office insists 
that the original language in the deed would result in a defeasible 
interest in land of the United States, which is illegal and 
unenforceable, and could leave the United States without the ability to 
store supplemental Federal water after a $90 million investment in the 
project.
    Over the past 3 years, under direction from Chairman Rob Bishop's 
office, all of the parties including the Utah offices of the Bureau of 
Reclamation and CUPCA officials, have been working a legislative 
solution. The bill as drafted today is the result of these 
negotiations. The District joined Moon Lake Water Users Association and 
Duchesne County Water Conservancy District and signed a Memorandum of 
Agreement (attached for the record), which is reflected in legislative 
text of H.R. 6583. The bill is very straightforward. It authorizes the 
District to prepay all of our Federal partners' investment and that 
will enable the District to obtain title to these lands for the 
ultimate purpose of transferring the properties at Big Sand Wash 
Reservoir to Moon Lake Water Users Association. Other features of the 
project that include the delivery pipelines to Duchesne County for its 
municipal and irrigation customers will be transferred to those 
specific users through the agreements as specified in the bill. All of 
these customers will continue to pay the District for the water we sell 
them until we recoup our costs. The UBRP facilities are stand alone, 
meaning they only serve the water users involved. This makes it ideal 
for title transfer.
    I believe H.R. 6583 represents the best solution to resolve this 
legal dilemma. It returns the Federal Government's money, allows those 
who maintain and operate these facilities to obtain title to them, and 
resolves a legal conflict between the District and the Department of 
the Interior. On behalf of the District, I want to again thank Chairman 
Bishop for his support throughout this process and the vitally 
important suggestions and contributions of the Interior Department 
officials in Utah who helped us develop this solution.

                                 *****

                       attachment for the record

                        MEMORANDUM OF AGREEMENT
                                 AMONG
            CENTRAL UTAH WATER CONSERVANCY DISTRICT (CUWCD),
            MOON LAKE WATER USERS ASSOCIATION (ASSOCIATION),
                                  AND
           DUCHESNE COUNTY WATER CONSERVANCY DISTRICT (DCWCD)
      FOR RESOLVING MULTIPLE ADMINISTRATIVE AND OPERATIONAL ISSUES
                               REGARDING
           UINTA BASIN REPLACEMENT PROJECT (UBRP) FACILITIES

This MEMORANDUM OF AGREEMENT (MOA) is made and entered into this 27th 
day of June, 2018 among the Central Utah Water Conservancy District, 
355 West University Parkway, Orem, Utah 84058; the Moon Lake Water 
Users Association, 263 East Lagoon Street, P.O. Box 235, Roosevelt, 
Utah 84066; and the Duchesne County Water Conservancy District, 275 
West 800 South, Roosevelt, Utah 84066. Collectively the preceding shall 
be referred to as ``the Parties.''

The Parties have agreed to the following concepts, some to be included 
in proposed UBRP-specific Title Transfer Legislation (Legislation) and 
others not, to resolve multiple administrative and operational issues 
regarding UBRP facilities:
Concepts included in the Legislation:
Land

The land acquired for UBRP and held by CUWCD would remain in the name 
of CUWCD. The Legislation would authorize the three parcels of land 
acquired by the United States for Big Sand Wash Reservoir to be 
transferred to CUWCD. After enactment of the Legislation and under a 
separate agreement, most of the land acquired by CUWCD and the United 
States would be transferred from CUWCD to ASSOCIATION. The land 
underlying Utah State Highway 87 would be transferred from CUWCD to the 
Utah Department of Transportation. This land transfer would not include 
land acquired for mitigation of UBRP, which would remain in the name of 
and under the administration of the United States.
Repayment

The Legislation would restate the authority provided under Section 210 
of the Central Utah Project Completion Act (CUPCA), found in Public Law 
102-575, which allows CUWCD to prepay their municipal and industrial 
(M&I) repayment obligation. The Legislation would also allow CUWCD to 
prepay its irrigation repayment obligations on a block-notice-by-block-
notice basis. The effect of this authorization would be to remove 
Reclamation Reform Act (RRA) requirements from CUWCD and those to whom 
it sells water as each block notice is prepaid.
Facilities

The outlet works at Moon Lake Dam, which were modified under UBRP, 
would remain as features of the Federal Moon Lake Project. All other 
features of UBRP would be transferred from the United States to CUWCD, 
including the Big Sand Wash Feeder Diversion, the Big Sand Wash Feeder 
Pipeline, and the Big Sand Wash-Roosevelt Pipeline. (See accompanying 
Figure 1.1, Uinta Basin Replacement Project Features, for location 
information.)
Agreements

Title transfer from CUWCD to ASSOCIATION would be contingent upon the 
execution of several agreements in accordance with the Legislation. The 
Parties agree that the UBRP Operating Agreement, Agreement No. 01-07-
40-R7020 dated November 15, 2001, shall be preserved as the controlling 
document, recognizing that some modification will be necessary.

Title transfer and the execution of the agreements would be contingent 
upon the completion of National Environmental Protection Agency (NEPA) 
and cultural resource compliance.

The Parties recognize the necessity for a timely, collaborative 
approach in preparing and executing the referenced agreements. The 
Parties also acknowledge that agreement provisions need to be 
implemented in a mutually beneficial, cooperative manner.
Concepts not included in the Legislation:
Water Rights

Section 203(e) ofCUPCA states: ``WATER RIGHTS.--To make water rights 
available for any of the features constructed as authorized in this 
section, the [United States] Bureau [of Reclamation] shall convey to 
[CUWCD] in accordance with [Utah] State law the water rights evidenced 
by Water Right No. 43-3825 (Application No. A36642) and Water Right No. 
43-3827 (Application No. A36644).''

In accordance with this Section of CUPCA, these water rights have been 
assigned to CUWCD. A deed, however, must be conveyed from the United 
States to CUWCD to complete the conveyance.
Water Transfer

Although not part of the Legislation, but associated with the title 
transfer, would be the potential exchange of a portion or all of the 
3,000 acre-feet of UBRP M&I water assigned to DCWCD. All or part of 
this M&I water would be exchanged from Big Sand Wash Reservoir to 
Starvation Reservoir. Currently, 1,500 acre-feet of this water is being 
temporarily used for instream flows under the authority of Section 207 
of CUPCA. The water, delivered from Starvation Reservoir, could be used 
for instream flows or M&I use. A study and NEPA compliance would need 
to be conducted.
Future Transfers

In the future, land, facilities, and a portion of the water rights 
transferred from the United States to CUWCD could be transferred from 
CUWCD to ASSOCIATION and/or the DCWCD.
IN WITNESS THEREOF, the Parties have thereto caused this MOA to be 
executed as of this 27th day of June, 2018.

CENTRAL UTAH WATER CONSERVANCY DISTRICT

By: Gene Shawcroft, P.E.
General Manager/CEO

MOON LAKE WATER USERS ASSOCIATION

By: Dex Winterton
General Manager

DUCHESNE COUNTY WATER CONSERVANCY DISTRICT

By: Clyde Watkins
General Manager
[GRAPHIC] [TIFF OMITTED] T1400.001


                                 
                                 

    Mr. Lamborn. Thank you.
    Mr. Winterton, you are now recognized for 5 minutes.

 STATEMENT OF DEX WINTERTON, GENERAL MANAGER, MOON LAKE WATER 
               USERS ASSOCIATION, ROOSEVELT, UTAH

    Mr. Winterton. Chairman Lamborn, Ranking Member Huffman, 
and members of the Subcommittee, good afternoon. My name is Dex 
Winterton, and I am the General Manager of the Moon Lake Water 
Users Association. Thank you very much for your time and for 
your consideration of H.R. 6583, Big Sand Wash Project Title 
Transfer Act.
    We would first like to thank Chairman Rob Bishop and his 
great staff for getting us to this point. Without Chairman 
Bishop's leadership, this resolution would not have been 
possible.
    Moon Lake Water Users Association is a Utah non-profit 
corporation and a mutual irrigation company. The Association's 
eight shareholders are non-profit mutual irrigation companies. 
The Association was formed in 1934. It provides agricultural 
irrigation water to over 75,000 acres in the Uintah Basin, 
located in the northeast of Utah.
    Over our history, the Association has acquired, 
participated in, and built many projects. Among these was the 
original private off-stream Big Sand Wash Reservoir, as well as 
13 small Depression-era reservoirs in the Uintah Mountains, 
inside the area which Congress designated as High Uintas 
Wilderness Area in 1984.
    Water storage is a precious and scarce commodity in the 
Uintah Basin. The priority water rights are tribal. The 
mountains are steep with predominately south-facing slopes, so 
the majority of the volume of the streamflow comes in a short 
amount of time early in the irrigation season. These two 
factors mean that, without storage, water right holders like 
the Association have insufficient water for mid- to late-season 
irrigation.
    Federal land ownership has restricted available locations 
to store early runoff flows for more productive use later in 
the season. As a result of these factors, available storage 
volume relative to need in the Basin remains a serious 
limitation on productivity. For these reasons, we are always 
looking to improve our system by adding storage or improving 
facilities and efficiencies.
    In the early 1990s, the Association was approached by the 
Department of the Interior's CUPCA Completion Office and the 
Central Utah Water Conservancy District about including the 
enlargement of the Association's privately owned and financed 
offstream Big Sand Wash Reservoir as a component of the Uintah 
Basin Replacement Project.
    The Uintah Basin Replacement Project was authorized in 1992 
by passage of what is commonly called the Central Utah Project 
Completion Act. While there were benefits for the Association 
in allowing the enlargement of Big Sand Wash Reservoir, such as 
moving some of our water storage out of the wilderness area, 
there was obvious concern about undue Federal control of a 
facility that had been entirely built, operated, and completely 
paid for by the Association.
    Nevertheless, after many years of negotiation, agreements 
were reached which would allow for the Central Utah Water 
Conservancy District, under Department of the Interior 
supervision, to enlarge the Big Sand Wash Reservoir.
    These agreements called for the Association to continue 
operation and maintenance of the facility and to own fee title 
to both the historically-owned Association Big Sand Wash 
Reservoir lands, as well as the additional lands to be acquired 
for the enlargement, subject to a very specific form of 
easement to be held by the United States. Without these 
specific conditions being included in the agreement, the 
Association would not have agreed to participate in the 
enlargement of our reservoir.
    In 2001, the U.S. Department of the Interior accepted the 
agreed form of easement on historic Association Big Sand Wash 
Reservoir lands, which make up the large majority of lands 
under the enlarged reservoir, and formally signed the 
agreement. The agreement called for the United States to 
acquire the additional needed lands to facilitate the 
enlargement, then reserve the exact same form of easement that 
had previously been given by the Association, and then convey 
fee title to the acquired additional lands to the Association.
    Over the course of decades, it has been one battle after 
another to get the Department of the Interior to live up to the 
signed agreement with respect to the Association holding fee 
title to the acquired additional Big Sand Wash Reservoir lands 
subject only to the agreed form of easement.
    We are grateful for the work of Congressman Bishop, who, 
through his efforts, brought the parties together. We are also 
appreciative of our friends from the Central Utah Water 
Conservancy District for their proposed solution of title 
transfer as outlined in H.R. 6583.
    This bill will allow the Moon Lake Water Users Association 
to move forward and secure what was formally agreed to by the 
parties in 2001.
    We thank the Committee for your time and assistance, and 
ask for your support and expeditious consideration of H.R. 
6583.

    [The prepared statement of Mr. Winterton follows:]
 Prepared Statement of Dex Winterton, General Manager, Moon Lake Water 
                     Users Association on H.R. 6583
    Chairman Lamborn, Ranking Member Huffman, and members of the 
Subcommittee, good afternoon, my name is Dex Winterton and I am the 
General Manager of the Moon Lake Water Users Association. Thank you 
very much for your time and consideration of H.R. 6583--Big Sand Wash 
Project Title Transfer Act.
    We would first like to thank Chairman Rob Bishop and his great 
staff for getting us to this point. Without Chairman Bishop's 
leadership this resolution would not have been possible.
    Moon Lake Water Users Association is a Utah non-profit corporation 
and a mutual irrigation company. The Association's eight shareholders 
are also non-profit mutual irrigation companies. The Association was 
formed in 1934. It provides agricultural irrigation water to over 
75,000 acres in the Uintah Basin, located in the northeast of Utah. 
Over our history the Association has acquired, participated in and 
built many projects. Among these was the original private off-stream 
Big Sand Wash Reservoir, as well as 13 small depression-era reservoirs 
in the Uintah Mountains, an east-west oriented mountain range, the 
relevant portion of which Congress designated as the High Uintas 
Wilderness Area in 1984.
    Water storage is a precious and scarce commodity in the Uintah 
Basin. The priority water rights are tribal. The mountains are steep 
with predominately south-facing slopes, so the majority of the volume 
of the streamflow comes in a short amount of time early in the 
irrigation season. These two factors mean water right holders like the 
Association have insufficient water for mid to late irrigation season 
without storage. Federal and tribal land ownership has restricted 
available locations to store early runoff flows for more productive use 
later in the season. As a result of these factors available storage 
volume relative to need in the Basin remains a serious limitation on 
productivity. For these reasons, we are always looking to improve our 
system by adding storage or improving facilities and efficiencies.
    In the early 1990s, the Association was approached by the 
Department of the Interior's CUPCA Completion Office and the Central 
Utah Water Conservancy District (CUWCD) about including the enlargement 
of the Association's privately owned and privately financed off-stream 
Big Sand Wash Reservoir as a component of the Uintah Basin Replacement 
Project (UBRP). UBRP was authorized in 1992 by passage of what is 
commonly called the Central Utah Project Completion Act (CUPCA). While 
there were benefits for the Association in allowing the enlargement of 
Big Sand Wash Reservoir for the Association, such as moving some of our 
water storage out of the wilderness area, there was obvious concern 
about undue Federal control of a facility that had been entirely built, 
operated and completely paid for by the Association.
    Nevertheless, after many years of negotiation, agreements were 
reached which would allow for CUWCD, under DOI supervision, to enlarge 
Big Sand Wash Reservoir. These agreements called for the Association to 
continue operation and maintenance of the facility and to own fee title 
to both the historically owned Association Big Sand Wash Reservoir 
lands, as well as the additional lands to be acquired for the 
enlargement, subject to a very specific form of easement to be held by 
the United States. Without these specific conditions being included in 
the Agreement, the Association would not have agreed to participate in 
the enlargement of our reservoir.
    In 2001, the U.S. Department of the Interior (DOI) accepted the 
agreed form of easement on historic Association Big Sand Wash Reservoir 
Lands, which make up the large majority of lands under the enlarged Big 
Sand Wash Reservoir, and formally signed the Agreement. The Agreement 
called for the United States to acquire the additional needed lands to 
facilitate the enlargement, then reserve the exact same form of 
easement that had been given by the Association as to the historically 
owned Association Big Sand Wash lands, and then convey fee title to the 
acquired additional lands to the Association, subject to that easement.
    Over the course of decades, it has been one battle after another 
after another to get DOI to live up to the signed Agreement with 
respect to the Association holding fee title to acquired additional Big 
Sand Wash Reservoir lands subject only to the agreed form of easement.
    We are grateful for the work of Congressman Bishop who through his 
efforts brought the parties together. We are also appreciative of our 
friends from CUWCD for their proposed solution of Title Transfer as 
outlined in H.R. 6583. This Bill will allow the Moon Lake Water Users 
Association to move forward and secure what was formally agreed to by 
the parties in 2001.
    We thank the Committee for your time and assistance and ask for 
your support and expeditious consideration of H.R. 6583.

                                 ______
                                 

    Mr. Lamborn. All right. Thank you all for your testimony on 
H.R. 6583. We will take up questions now for that bill, and 
then a little bit later we will move into the other bill. I 
will now recognize myself for 5 minutes.
    Mr. Ewell, thank you for being here. As you are aware, I 
have put forth a bill, H.R. 3281, which aims to streamline the 
title transfer process, in general. In your testimony, you had 
mentioned the Administration's proposal, which reflects many of 
the ideas in my bill. Do you believe these title transfers, or 
parts of them, would be candidates for consideration under 
these proposals--your proposal and my bill proposal?
    Mr. Ewell. Thank you, Chairman, for the question. Yes, I 
believe that portions--at least on the face of it, as it 
relates to the particular bill in front of us--would be 
applicable. I think the general theme of streamlining is 
reflected in both the Administration's proposal, as well as 
yours, and, ultimately, the goal of looking toward 
uncomplicated, single-purpose projects, to allow for transfer.
    And I think, on the face of it, both the bills before us 
today have some of those characteristics with some more 
complexities related to the Big Sand Wash Project.
    Mr. Lamborn. All right. As a followup, I think many of us 
see the need for a modernized path allowing for non-Federal 
entities to take title to the facilities they operate and 
maintain. Can you assure me that you will continue to work with 
my office and the entire Committee to ensure that we can 
develop a plan to streamline the title transfer process for 
appropriate transfers?
    Mr. Ewell. Yes, sir. I would be happy to confirm our 
interest. It is a priority of the Department of the Interior 
and of the Administration to see a successful process 
established for streamlining title transfers for projects that 
are uncomplicated and make sense for meeting that purpose.
    Mr. Lamborn. OK, thank you. Now, we have heard from several 
Members on the other side that title transfers must protect the 
taxpayer investment in these projects, and that is a concept I 
am totally in support of, as well. It is my understanding that 
these projects are fully paid off before title is transferred.
    So, Mr. Ewell, is it the Bureau's general practice to 
finalize title transfer agreements only once a project is 
indeed fully paid off?
    Mr. Ewell. You are correct. The idea that the project is 
repaid prior to any transfer taking place, that would then 
include title transfer.
    In this case, you have two projects which have remaining 
amounts due, based upon the repayment. Those would be repaid 
prior to any actual transfer of title.
    Mr. Lamborn. Does that leave any taxpayer vulnerability in 
the kind of title transfer process that my bill or these 
specific bills anticipate?
    Mr. Ewell. I don't believe so. The intent is to identify 
what amounts are owed, either in the repayment contract, as 
well as any other associated revenues due to the United States, 
whether it be due to easements or other revenue-generating 
streams associated with the ownership of those projects. Those 
are all identified in the process with the Memorandum of 
Understanding.
    Once those are calculated and determined, those amounts are 
fully paid in advance, prior to any transfer of title, thus 
protecting the interests of the taxpayers.
    Mr. Lamborn. OK, thank you.
    Mr. Shawcroft and Mr. Winterton, concerns have been raised 
to make sure that the environment continues to be protected. 
Would there be any lessening of environmental protection if 
your stakeholders were to take possession of a property and 
take ownership of a property, as opposed to Federal ownership?
    Mr. Shawcroft. No, sir. There would be no reduction. Those 
agreements in place now are between the Central Utah Water 
Conservancy District, the sponsor of the project, and the 
Department of the Interior. And those agreements would not 
change.
    Mr. Lamborn. Mr. Winterton?
    Mr. Winterton. No, there has been agreement that nothing 
will change, as far as deliveries or instream flow commitments. 
Everything remains the same. Just fixing the issue that we have 
with the easements is our interest.
    Mr. Lamborn. Well, I like the sounds of what we are doing, 
whether it is for specific projects or in general. The 
government is repaid, the taxpayers are satisfied. 
Environmental protections go forward. I like the idea of local 
oversight, as opposed to from a distance, like here from 
Washington, DC, and I like the fact that taxpayers don't have 
any continuing liability, either.
    With that, I will turn over for 5 minutes to the Ranking 
Member, Mr. Huffman.
    Mr. Huffman. Thanks, Mr. Chairman. Mr. Ewell, welcome to 
the Subcommittee. I am going to start with you. I know that 
H.R. 6583 requires compliance with NEPA, and I know that the 
Bureau has carried out about 30 or so title transfers, as I 
understand it. And there has been a NEPA process associated 
with all of that.
    I am interested in hearing you speak to what kind of issues 
came to light during the NEPA process of these previous 
transfer processes.
    Mr. Ewell. Thank you very much for the question, 
Congressman, and it is a pleasure, good to see you again.
    Since about 1996, there have been roughly 30 title 
transfers which the Reclamation has completed. My understanding 
is approximately 2 or 3 of those--besides those 2 or 3, the 
remaining 27, 28 of those transfers all were completed with an 
EA and a FONSI.
    Only one of those actually required a mitigated EA FONSI, 
and that was due to the tribal lands that were associated with 
the project facilities. Other than that, historically they have 
been completed environmentally through the environmental 
assessment with the finding of no significant impact.
    Mr. Huffman. These were the kind of uncomplicated, single-
purpose projects that we talk about. Is it fair to say, or 
would you agree with me that the NEPA process provided an 
important way for you to validate that these were not 
controversial, and that the title transfer was appropriate for 
all the stakeholders involved?
    Mr. Ewell. Yes, sir. I believe that is a fair statement. I 
think the existing NEPA process, which goes through to identify 
what impacts, if any, are associated with the facilities, and 
the transfer of those facilities in most cases, the operations 
and the facilities themselves remain the same. They just go to, 
quite frankly, the districts that are already operating and 
maintaining the facilities. This just allows them to now hold 
title to those facilities.
    Mr. Huffman. Thank you.
    For Mr. Shawcroft and Mr. Winterton, a question for both of 
you. As I said in my opening remarks, I do support 
uncomplicated title transfers if they don't negatively impact 
local tribes, fishing groups, power users, environmental, and 
recreational interests, et cetera.
    As far as you know, are there any objections to this 
proposed title transfer from any such stakeholders in your 
community?
    Mr. Shawcroft. None that I am aware of.
    Mr. Huffman. All right. And I would just ask the same of 
Mr. Freeman.
    Mr. Freeman. No, sir.
    Mr. Huffman. OK. Terrific. And I also understand that you 
may be considering some additional title transfers involving 
other Reclamation assets. You have done a great job working 
with the Yakima Tribe and other stakeholders. Are you committed 
to continuing that kind of collaborative inclusion and outreach 
as you consider other facilities?
    Mr. Freeman. Yes, sir.
    Mr. Huffman. All right. Thanks.
    I have nothing further, Mr. Chairman. Thank you.
    Mr. Lamborn. All right. I now recognize Chairman Bishop for 
5 minutes.
    The Chairman. Thank you.
    Mr. Shawcroft and Mr. Winterton, let me ask you both the 
same question. In your testimonies, you described going back in 
history to 2001, when there was an agreement that should have 
enabled Moon Lake Water Users Association to retake the title 
of the Big Sand Wash Reservoir land, but DOI changed its legal 
interpretation and reneged on the deal.
    Can you simply describe what impact that had on the 
communities in the Basin who rely on these secure water 
deliveries?
    Let's start with you, Mr. Shawcroft.
    Mr. Shawcroft. I am unaware of any impact that has had. The 
project has functioned, it has been working well. Mr. Winterton 
actually operates that project, and I will let him answer. But 
as far as I am concerned, there has not been any impact, as far 
as the deliveries have been concerned.
    The Chairman. Mr. Winterton?
    Mr. Winterton. For me, I think, and for the Association, it 
brings about a lot of uncertainty and questions about the 
future. This is not the only project that we operate.
    As these things move forward, if they can question and 
renege, as was said, on these agreements, what else can they 
find in other agreements that we handle?
    So, that is our biggest concern, security going into the 
future, being able to make our deliveries, handling our own 
water rights.
    The Chairman. To follow up, does this title transfer 
alleviate that challenge?
    Mr. Winterton. Yes, it should, as long as we can complete 
these issues, like we have discussed, and get the easement, as 
proposed.
    The Chairman. And, once again, the water supply that is 
already under contract, that would remain untouched?
    Mr. Winterton. Yes.
    The Chairman. It would still be available, it would still 
be delivered?
    Mr. Winterton. Yes.
    The Chairman. There has been some question in certain 
places simply about the completion of environmental compliance, 
if this was actually transferred. Do either of you--once again, 
Mr. Winterton first, then Mr. Shawcroft--have any concerns 
about the actual compliance with any kind of environmental 
regulations, were this transfer to take place?
    Mr. Winterton. No. Essentially, operations shouldn't change 
in any way, shape, or form. I think the mutual agreement 
between the Association and Central Utah Water Conservancy 
District is to leave those operations, as far as the agreement 
is concerned, in place. I see no concern, moving forward, to 
keep those environmental protections in place.
    Mr. Shawcroft. I would agree with that. The commitments 
that were made are under a Record of Decision, which was 
provided on the Uintah Basin Replacement Project. Those 
commitments will continue. I see no reason why there would be 
any modification at all in any of those environmental 
commitments.
    The Chairman. It was implied in some of the written 
testimony that there might have to be follow-up legislation 
because of operating agreements. Do either of you see a need 
for that?
    Mr. Shawcroft. I do not. I think if the agreements that are 
listed and enumerated are completed, there will be no further 
legislative action.
    Mr. Winterton. Yes, as long as we are making sure these 
agreements come together, as long as they come together, then 
there shouldn't be any need.
    The Chairman. As you two were working out the agreement 
that went into this, and making the agreement that you signed 
together, was the Utah office of the Bureau of Reclamation 
involved in that?
    Mr. Shawcroft. They were involved in the discussion and the 
negotiation as Mr. Winterton and I and our staff got together. 
They were not involved in every meeting, but they have been 
involved with all of the communication, everything that has 
been in writing they have been involved with, and they have 
been very supportive and have been helpful as we have concluded 
these negotiations.
    The Chairman. So, basically, you have signed off on what we 
are attempting to do here.
    Mr. Winterton. Yes.
    The Chairman. OK, and are supportive of that?
    Mr. Winterton. Correct.
    The Chairman. Cool.
    Mr. Ewell, within the context of this legislation, do you 
think there is further language that is necessary?
    Mr. Ewell. Thank you for the question, Mr. Chairman. I 
believe that the idea behind the legislation, and especially if 
it allows some room should future items be discovered, for 
those to be included, I think that the legislation as written 
is appropriate.
    The Chairman. Thank you. I appreciate that. I also 
appreciate the oral testimony that you have given here today. I 
think it has been spot on. Written one, eh, but the oral 
testimony has been very good.
    [Laughter.]
    The Chairman. I also have some concerns about trying to 
follow any Senate pattern that we have, as far as coming up 
with an overall standard. If we actually were to follow the 
Senate in any kind of possibility, that would basically mean we 
do nothing, and then we would follow the Senate standards. 
Thank you for your testimony.
    Mr. Lamborn. All right, thank you. We have now finished our 
consideration of H.R. 6583. Mr. Winterton and Mr. Shawcroft, 
thank you for traveling to be here with us today. You are now 
excused.
    And we will move into discussion on our second and final 
bill of the day, H.R. 6652.
    Mr. Freeman, you are recognized for 5 minutes.

    STATEMENT OF CHUCK FREEMAN, DISTRICT MANAGER, KENNEWICK 
           IRRIGATION DISTRICT, KENNEWICK, WASHINGTON

    Mr. Freeman. Thank you, Chairman Lamborn, Ranking Member 
Huffman, and members of the Subcommittee. I am Charles Freeman, 
District Manager for the Kennewick Irrigation District (KID). 
With me today are Vice President of my Board of Directors, Mr. 
Kurt Huffman and my Land and Water Resource Manager, Seth 
Defoe.
    KID is a water provider serving the urban and agricultural 
customers at the end of the Yakima Basin project in Washington 
State.
    I want to thank you for holding a hearing on H.R. 6652, the 
Kennewick Irrigation District title transfer bill. We 
appreciate Congressman Dan Newhouse's leadership on this and 
other water infrastructure issues, and I would also like to 
thank Chairman Lamborn and other members of the Committee for 
their work on the Reclamation Title Transfer and Non-Federal 
Infrastructure Incentivization Act.
    The KID has been supplying water in the lower Yakima Basin 
for over 100 years. Our partnership with the Bureau of 
Reclamation began in the 1950s to build much of the canal 
system we use today. Since 1958, the District has been 
responsible for operation, maintenance, and replacement of the 
facilities we hope to take title to. We have a long proven 
history of successfully managing and operating our system. The 
District is scheduled to conclude its repayment requirements to 
Reclamation in 2024, however we are prepared to prepay the 
remaining balance of our loan.
    H.R. 6652 authorizes the transfer of ownership of the 
Kennewick Irrigation District transferred works from 
Reclamation to the District. The transferred works include 
about 80 miles of canal laterals, associated works, easements, 
drains, and waste-ways. The transfer of title would enable the 
District to have more direct control over an important 
infrastructure asset and can provide added service to our 
operations.
    The transfer would also benefit the Federal Government by 
reducing its liability. And with us prepaying our repayment 
loan early, the Federal taxpayer will also see a fiscal 
benefit.
    The District is committed to going through the title 
transfer process in a collaborative manner. As part of this, 
the District will go through an environmental assessment under 
the National Environmental Policy Act. This process includes 
tribal consultation, which Ranking Member Huffman referred to 
today.
    When the Board of Directors authorized me to investigate 
and go forward with the idea of title transfer transferred 
works, our first meeting was at the Yakima Nation. I am very 
humbled and very pleased with their letter today. We have no 
issues with what they are asking; it is just clarification of 
what the head gate is, and other terms with respect to the 
water right. So, we will continue dialoguing with them, as well 
as going through the Endangered Species Act review and National 
Historic Preservation Act review, and the hazardous materials 
review.
    The District and Reclamation have signed an MOA that lists 
tasks and environmental reviews associated with the title 
transfer process. The costs of these tasks total over $189,000, 
of which KID has paid $115,000. The largest expenditures 
associated with the title transfer are these reviews. The 
District does not object to going through the process. It 
should be noted that the project will not change. We are 
transferring facilities that have already been constructed, and 
that KID has been operating and responsible for for over 60 
years. In large part, the title transfer is an exchange of 
documents.
    Water providers face numerous challenges in their efforts 
to supply water, including growing demand, aging 
infrastructure, and changing precipitation patterns. Managing 
challenges are one of the reasons we are pursuing title 
transfer. A title transfer will help make our district as 
responsive, innovative, and efficient as possible.
    Last year, KID celebrated its centennial anniversary. As 
the District looks toward the future, a title transfer will 
help ensure reliable and efficient water supplies for the next 
century and beyond.
    Chairman Lamborn, Ranking Member Huffman, and Congressman 
Newhouse, we would like to thank you for consideration and 
support in legislation, and for your attention to our Nation's 
water infrastructure.
    I would be happy to answer any questions.

    [The prepared statement of Mr. Freeman follows:]
  Prepared Statement of Charles Freeman, District Manager, Kennewick 
                    Irrigation District on H.R. 6652
    Chairman Lamborn, Ranking Member Huffman, and members of the 
Subcommittee, I am Charles Freeman, the District Manager for the 
Kennewick Irrigation District (the District). I want to thank you for 
holding a hearing on H.R. 6652, the Kennewick Irrigation District title 
transfer bill. We appreciate Congressman Dan Newhouse's leadership on 
water infrastructure issues and for introducing the bill. I would also 
like to thank Chairman Lamborn and the other members of the Committee 
for their work on the Reclamation Title Transfer and Non-Federal 
Infrastructure Incentivization Act.
    The District has been supplying water in the lower Yakima Basin for 
over 100 years. It was first formed as a special purpose district in 
1917 and today provides irrigation water to approximately 23,400 
landowners across 20,201 acres of land within a 55,000-acre boundary. 
In the 1950s, the Bureau of Reclamation (Reclamation) partnered with 
local farms to build the canal system we still use today. This system 
diverts water from the Yakima River at Prosser Dam. The water travels 
11 miles down a diversion canal along the river to Chandler. There 
hydraulic pumps send the water up the Horse Heaven Hills to the head of 
the main canal.
    Since 1958, the District has been responsible for operations, 
maintenance, and replacement of our facilities. We have a long proven 
history of successfully managing and operating our water system. The 
District is scheduled to conclude its repayment requirements to 
Reclamation in 2024, however we are prepared to prepay the remaining 
balance. Currently, Congress has to specifically authorize title 
transfers. This is because Reclamation retains the title or ownership 
of the facilities and projects, even after a repayment contract is 
completed. Since 1996, Congress has authorized title transfer for 30 
projects. H.R. 6652 authorizes the transfer ownership of the Kennewick 
Irrigation District's Transferred Works from Reclamation to the 
District. The Transferred Works include the canals, laterals, and 
appurtenant works and lands, which begin at the District's head gate 
and extends approximately 40 miles east to the Columbia River.
    The transfer of title would enable the District to have more direct 
control of an important infrastructure asset and could provide value 
added service to our operations. The transfer will also benefit the 
Federal Government by reducing its liabilities and, because we are 
willing to prepay our remaining repayment balance, the Federal taxpayer 
will also see a fiscal benefit.
    When the District recognized that it was in a position to pay off 
its obligation to the Federal Government early it decided to move ahead 
with title transfer. On August 15, 2017, the District's Board of 
Directors approved Resolution 2017-29, authorizing KID staff to engage 
Reclamation and our congressional delegation in the title transfer 
process. That December, the District and Reclamation agreed to a 
Memorandum of Agreement (MOA) to facilitate a title transfer of a 
number of works that will be paid off and that the District already 
operates and manages. We have greatly appreciated working with 
Reclamation through this process.
    The District is committed to going through the title transfer 
process in a collaborative manner. As part of the MOA the District will 
go through an Environmental Assessment (EA) under the National 
Environmental Policy Act (NEPA). This process includes tribal 
consultation, and Endangered Species Act Review, a National Historical 
Preservation Act Review, and a hazardous materials review.
    The MOA with Reclamation lists tasks associated with the title 
transfer process, totaling $189,757.00, of which Reclamation will pay 
$74,757.00 and KID will pay $115,000.00. The largest expenditures 
associated with the title transfer are these reviews, while the 
District does not object to these processes we do think it should be 
noted that the use of the project will not change, we are transferring 
facilities that have already been constructed, and that the District 
has been managing these facilities for over 60 years. In large part the 
title transfer is an exchange of documents.
    On February 14, 2018, I had the privilege of testifying before this 
Subcommittee on ``The State of the Nation's Water and Power 
Infrastructure.'' My testimony addressed the growing challenges water 
providers face in their efforts to supply water including growing 
demand, aging infrastructure, and changing precipitation patterns. 
Managing these challenges are one of the reasons we are pursuing title 
transfer. I believe our district must be as responsive, innovative, and 
efficient as possible.

    As the District looks toward the future a title transfer will help 
ensure reliable and efficient water supplies for the next generation 
and beyond.
         title transfer and improved infrastructure management
    Our community has changed since the District's infrastructure was 
initially built to serve the agricultural community. Today, the 
District's water deliveries are almost half agricultural land and half 
residential areas.
    Taking a system designed for agricultural purposes and using it to 
supply urbanized customers creates unique challenges for the District. 
Unfortunately, Reclamation has not always been timely in meeting the 
needs of our community. For example, developers in Kennewick have had 
to endure years long waiting times for Reclamation's approval to move 
easement lines on properties a developer already owns. The wait has 
affected the private development of those properties. Reclamation is a 
valuable partner and we believe that H.R. 6652 will ease some of the 
burdens it faces and it will benefit the District as well as the 
surrounding community.
                the future of water in the yakima basin
    Last year, KID celebrated its centennial anniversary. The District 
has been able to supply water for over a century based on investments 
made by prior generations. We are committed to ensuring that the 
District is able to supply water for another century, and beyond. To do 
that KID must continue to invest in its systems, its operations, and 
partnerships with other stakeholders.
    Chairman Lamborn and Ranking Member Huffman, thank you for your 
consideration of this important legislation and for your attention to 
our Nation's water infrastructure. I am confident that with this 
Subcommittee's leadership we can successfully complete this title 
transfer process and provide the District, its customers, and the 
Kennewick community with the flexibility we need to continue meeting 
the needs of our water users. Thank you for allowing me the opportunity 
to testify. I would be happy to answer any questions.

                                 ______
                                 

    Mr. Lamborn. All right. Thank you for your testimony. You 
have done such a good job of explaining things, I don't have 
any further questions. I will turn to the Ranking Member and 
see if he has any questions.
    Mr. Huffman. Nor do I. I appreciate the testimony, and I 
have nothing further.
    Mr. Lamborn. Chairman Bishop?
    The Chairman. Well, I mean, he has to have a question 
somewhere. So, how are you feeling?
    [Laughter.]
    The Chairman. I yield back.
    Mr. Lamborn. I want to thank you, Mr. Freeman and Mr. 
Ewell, and the other witnesses who were here earlier for coming 
today and sharing with us your valuable and helpful testimony. 
Members of the Subcommittee may have additional questions for 
you, and we would ask that you would respond to those in 
writing, if you receive those.
    Under Committee Rule 3(o), members of the Committee must 
submit questions to the Clerk within 3 business days following 
the hearing, and the hearing record will be open for 10 
business days for your responses.
    If there is no further business, without objection, the 
Subcommittee stands adjourned.

    [Whereupon, at 2:48 p.m., the Subcommittee was adjourned.]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
